                      U.S. Department of Agriculture

                         Office of Inspector General
                                  Southwest Region




             Audit Report

Controls Over Plant Variety Protection and
          Germplasm Storage




                              Report No. 50601-6-Te
                                        March 2004
              UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                      Washington, D.C. 20250




DATE:

REPLY TO
ATTN OF:        50601-6-Te

SUBJECT:        Controls Over Plant Variety Protection and Germplasm Storage

TO:             Jeremy Stump                         David Hegwood
                Director                             Special Counsel
                Office of Homeland Security           to the Secretary

                Joseph Jen                           William Hawks
                Under Secretary                      Under Secretary
                Research, Education, and             Marketing and Regulatory
                  Economics                           Programs


This report presents the results of our audit of Controls Over Plant Variety Protection and
Germplasm Storage. Responses to the draft report from the Administrators of Agricultural Research
Service and Animal and Plant Health Inspection Service, are included in exhibits A and B with
excerpts and the Office of Inspector General’s (OIG) positions incorporated into the relevant
sections of the report.

The agencies’ responses expressed concurrence with OIG’s findings and recommendations;
however, further actions are necessary to reach management decisions on the recommendations.
The actions needed to reach management decisions are described in the OIG Position section of the
report.

Please furnish the information needed to reach agreement on the management decisions for the
recommendations within 60 days. Please note that Departmental Regulation 1720-1 requires a
management decision for all recommendations within a maximum of 6 months from the date of
report issuance, and final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staffs during the
audit.


/s/RWY
ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Controls Over Plant Variety Protection and Germplasm Storage
(Audit Report No. 50601-6-Te)

Results In Brief    Since 2000, when genetically engineered StarLink corn approved only for
                    animal feed appeared in consumer food products, agricultural biotechnology
                    has attracted intense media coverage. The potential for increased adverse
                    reactions to agricultural biotechnology caused us to review the United States
                    Department of Agriculture’s (USDA) role in controlling genetically
                    engineered organisms (GEO). Because of USDA’s involvement in
                    biotechnology research and its responsibility for regulating the movement of
                    GEOs, we began an audit of the National Plant Germplasm System (NPGS) in
                    June 2002.

                    As of March 24, 2002, the NPGS consisted of 30 facilities across the U.S and
                    Puerto Rico that store plant germplasm, i.e., living tissue from which new
                    plants can be grown. NPGS curators and scientists evaluate, catalog, and
                    distribute germplasm with the goal of preserving the genetic diversity of crop
                    plants. The Agricultural Research Service (ARS), principal research agency
                    of USDA, coordinates the system.

                    Two other USDA agencies, the Agricultural Marketing Service (AMS) and
                    the Animal and Plant Health Inspection Service (APHIS), are involved in the
                    control of plant germplasm at NPGS facilities. AMS oversees the Plant
                    Variety Protection Office (PVPO), which issues certificates of protection for
                    newly developed plants and submits germplasm specimens for storage at the
                    NPGS. Through its notification and permit processes, APHIS regulates the
                    movement of certain GEOs and deregulates GEOs that it determines do not
                    pose a plant pest risk.

                    The objectives of the audit were to determine if the NPGS (1) properly
                    identified, shipped, inventoried, and disposed of GEOs, and (2) implemented
                    adequate security measures at its facilities.

                    We visited 20 NPGS facilities in the U.S., as well as the PVPO and an
                    APHIS office. We determined that, although two individual germplasm
                    facilities had implemented their own guidelines, the NPGS handbook did not
                    provide national guidance regarding the identification, shipment, inventory,
                    and disposal of GEOs. Furthermore, APHIS policies governing shipment of
                    regulated GEOs were not sufficient.

                    •   Officials at NPGS facilities could not always recognize the germplasm
                        they were storing as genetically engineered because documents arriving
                        with germplasm accessions did not identify the material as such. For
                        example, neither the PVPO application nor the storage application for

USDA/OIG-A/50601-6-Te                                                                      Page i
                        NPGS’ long-term germplasm collection requires applicants to identify
                        germplasm submissions as genetically engineered. Consequently, GEOs
                        were stored at 2 of the 20 NPGS facilities we visited without the
                        knowledge of facility managers.

                    •   APHIS policies did not adequately ensure that interstate shipments of
                        GEOs complied with approved terms of movement. As a result, one
                        NPGS facility made several unauthorized shipments of regulated
                        genetically engineered seed.

                    •   Because NPGS does not require physical inventories, most facility
                        managers did not conduct inventories on a regular basis. Of the 20
                        facilities we visited, only 8 performed regularly scheduled inventories.
                        Furthermore, all germplasm was not properly recorded in the NPGS
                        database (Germplasm Resource Information Network (GRIN), which
                        also does not differentiate between regulated and nonregulated GEOs.

                    •   Facilities lacked uniform, written instructions for the disposal of
                        germplasm, including GEOs. Only two of the facilities we visited had
                        written procedures for the disposal of germplasm. At the other facilities,
                        disposal methods ranged from burning germplasm to throwing it in the
                        trash.

                   We consider the preceding matters to represent material control weaknesses
                   that should be reported in the agencies’ Federal Managers’ Financial
                   Integrity Act reports.

                   Additionally, some facilities we visited had not taken reasonable security
                   measures to safeguard the nation’s genetic seed stock. Policies governing the
                   entry of foreign visitors and workers were not always implemented, and
                   physical security was not always adequate to deter theft and breaches by eco-
                   terrorists.

Recommendations
In Brief           We recommend that ARS develop policies and issue written guidance for the
                   control of GEOs to be implemented at NPGS facilities nationwide. We
                   recommend that these guidelines address:

                    •   Proper identification and documentation of GEOs entering the NPGS;

                    •   routine physical inventories of all germplasm storage facilities; and

                    •   proper germplasm disposal methods, including disposal of GEOs.

                   We recommend that APHIS revise its requirements for movement of GEOs
                   to prevent unauthorized shipment of genetically engineered germplasm.

USDA/OIG-A/50601-6-Te                                                                       Page ii
                   We further recommend that ARS revise its national policy dealing with
                   foreign visitors to NPGS facilities, and that it take reasonable measures to
                   enhance physical security at the facilities.

Agency Response    ARS and APHIS officials concurred with the findings and recommendations
                   in our audit report. (See exhibits A and B.)

OIG Position       To reach management decisions for all the recommendations, we need further
                   information. We have explained in the Findings and Recommendations
                   section of the report the actions that are necessary to reach management
                   decisions.




USDA/OIG-A/50601-6-Te                                                                  Page iii
Abbreviations Used in This Report

AMS                  Agricultural Marketing Service
APHIS                Animal and Plant Health Inspection Service
ARS                  Agricultural Research Service
CFR                  Code of Federal Regulations
CSR                  Crop Science Registry
GEO                  Genetically Engineered Organism
GRIN                 Germplasm Resource Information Network
NPGS                 National Plant Germplasm System
PVP                  Plant Variety Protection
PVPA                 Plant Variety Protection Act
PVPO                 Plant Variety Protection Office
REE                  Research, Education, and Economics
U.S.                 United States
USDA                 United States Department of Agriculture
ZmDB                 Zea Mays Database




USDA/OIG-A/50601-6-Te                                             Page iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. Controls Over GEOs ..................................................................................................... 4

        Finding 1             NPGS Needs to Strengthen Controls to Ensure Proper Identification of GEOs......... 4
                                  Recommendation No. 1, for ARS .................................................................... 7
                                  Recommendation No. 2, for ARS .................................................................... 8
                                  Recommendation No. 3, for ARS .................................................................... 8
        Finding 2             APHIS Needs to Strengthen Controls to Prevent Unauthorized Shipment of
                              Regulated GEOs ...................................................................................................... 8
                                  Recommendation No. 4, for APHIS ................................................................ 9
        Finding 3             NPGS Needs to Require Physical Inventories of Accessions on a Regular
                              Basis ...................................................................................................................... 10
                                  Recommendation No. 5, for ARS .................................................................. 11
        Finding 4             NPGS Needs to Establish Written Procedures for Disposal of Germplasm ......... 12
                                  Recommendation No. 6, for ARS .................................................................. 13

    Section 2.            NPGS Facility Security ............................................................................................ 14

        Finding 5             Policies Governing Entry of Foreigners to NPGS Facilities Need Revision ........ 14
                                  Recommendation No. 7, for ARS .................................................................. 15
                                  Recommendation No. 8, for ARS .................................................................. 15
        Finding 6             Physical Security at NPGS Facilities Needs Enhancement................................... 16
                                  Recommendation No. 9, for ARS .................................................................. 16

Scope and Methodology........................................................................................................................ 18

Exhibit A – ARS Response to Draft Report....................................................................................... 20

Exhibit B – APHIS Response to Draft Report................................................................................... 23

Glossary of Terms ................................................................................................................................. 24




USDA/OIG-A/50601-6-Te                                                                                                                             Page v
Background and Objectives
Background                           The USDA ARS coordinates the NPGS, a network of 30 facilities across the
                                     U.S. and Puerto Rico dedicated to maintaining the genetic diversity of crop
                                     plants from around the world. NPGS curators and other scientists preserve,
                                     evaluate, and catalog plant germplasm, i.e., living tissue from which new
                                     plants can be grown, such as leaves, pollen, or cells. NPGS facilities visited
                                     include 1 long-term collection of germplasm and 19 working collections to
                                     support the day-to-day research needs of scientists. Included in the working
                                     collections were six clonal repositories, where germplasm is preserved as
                                     living plants rather than in seed form. The NPGS encourages free and
                                     unrestricted exchange of germplasm between the U.S and other nations; any
                                     individual with valid reason, including plant scientists and breeders, medical
                                     researchers, and educators, may make use of NPGS collections, totaling
                                     450,423 accessions 1 as of March 24, 2002.

                                     The National Germplasm Resources Laboratory supports the entire NPGS. A
                                     hub for plant exploration activities and a clearinghouse for exchange of plant
                                     germplasm with foreign countries, the National Germplasm Resources
                                     Laboratory catalogs all incoming accessions, assigns plant introduction
                                     identification numbers, and distributes germplasm to the various collections in
                                     the system. The GRIN, a computer database maintained at the National
                                     Germplasm Resources Laboratory, contains information on genetic resources
                                     preserved by the NPGS. GRIN allows users to access the characteristics and
                                     location of specific germplasm accessions. NPGS staff members interact with
                                     GRIN by entering data, conducting searches, and recording germplasm orders.

                                     The development of agricultural biotechnology has increased the likelihood
                                     that the NPGS will obtain and store genetically engineered germplasm.
                                     USDA’s APHIS, defines genetic engineering as “the genetic modification of
                                     organisms by recombinant DNA techniques,” which may include the
                                     introduction of genes from unrelated species. For the purpose of this report
                                     we will refer to these new plant varieties as GEOs.

                                     APHIS classifies GEOs as regulated or nonregulated articles. Regulated
                                     articles include any organism that has been altered or produced through
                                     genetic engineering if the donor organism, recipient organism, or vector or
                                     vector agent belongs to any genera or taxa designated in Title 7, Code of
                                     Federal Regulations (CFR) 340.2 and meets the definition of a plant pest; or
                                     any organism or product that APHIS determines or has reason to believe is a
                                     plant pest. Prior to introducing a regulated article, which includes
                                     importation, interstate movement, or release into the environment, a person
                                     must obtain the appropriate APHIS notification or permit.               The

1
  An accession is recognized unique genetic material (i.e., a distinct variety of plant) maintained at a collection site. NPGS acquires accessions through
collection and by donation from foreign cooperators and international germplasm collections. Accessions include samples from wild populations, plants of
a particular cultivar or other improved germplasm, or tissue cultures. NPGS accessions represent more than 10,000 species of plants.
USDA/OIG-A/50601-6-Te                                                                                                                          Page 1
                   notification/permit processes grant authorization to move, import, or field test
                   regulated GEOs. Regulated GEOs that are candidates for commercialization
                   may achieve deregulated status if the petition process determines that they
                   pose no plant pest risk.

                   Apart from direct donation by an individual or a company, the three avenues
                   by which genetically engineered germplasm is most likely to enter the NPGS
                   are: the Plant Variety Protection (PVP) process, the Crop Science registration
                   program, and NPGS’ associated laboratory research.

                    •   The application for certificate of protection for new varieties of plants,
                        administered by the PVPO in accordance with the Plant Variety
                        Protection Act (PVPA), requires plant breeders to submit a voucher
                        sample of 2,500 seeds, which the PVPO forwards to the NPGS. The
                        PVPA, enacted in December 1970 and amended in 1994, provides legal
                        intellectual property rights to developers of new, sexually reproduced or
                        tuber-propagated plant varieties. After an examination determines that a
                        new variety is distinct from other varieties and genetically uniform and
                        stable through successive generations, the PVPO, part of USDA’s AMS,
                        issues a certificate of protection to the owner. The term of protection is
                        20 years for most crops and 25 years for trees, shrubs, and vines, during
                        which period the owner retains exclusive rights to multiply and market
                        the seed of that variety. The voucher sample submitted to NPGS remains
                        in black-box storage for the length of the certificate. After the certificate
                        expires, the voucher sample becomes part of the NPGS and is transferred
                        to the appropriate working collection, where it may be distributed to
                        valid requesters.

                        In addition, the owner of protected germplasm may make a separate,
                        direct donation to a NPGS working collection. Curators at the collections
                        may distribute the donated germplasm for research purposes, even when
                        it is still under certificate.

                    •   Requirements for publication in the scientific journal Crop Science
                        represent another avenue by which GEOs may enter the NPGS. The
                        Crop Science Society of America publishes information on recently
                        released cultivars, parental lines, elite germplasm, and genetic stocks in
                        Crop Science. The Crop Science Registry (CSR), in cooperation with
                        NPGS, handles registration of plant material submitted by breeders
                        seeking publication in the journal. As part of the registration process, the
                        breeder must deposit a sample of each new seed crop in the
                        NPGS’ long-term storage facility to ensure preservation. A copy of the
                        storage application form must accompany manuscripts submitted to Crop
                        Science.




USDA/OIG-A/50601-6-Te                                                                        Page 2
                    •   Finally, research activities at NPGS associated facilities, specifically the
                        development of genetically engineered germplasm, present an avenue for
                        GEOs entering the NPGS.

                   Accounting for GEOs at NPGS facilities assumes increasing importance in
                   light of the mixed reception of genetically engineered crops in the world
                   market.

  Objectives       The objectives of the audit were to determine if the NPGS (1) properly
                   identified, shipped, inventoried, and disposed of GEOs, and (2) implemented
                   adequate security measures at its facilities.

                   We visited 20 of the 30 NPGS facilities, including 14 germplasm collections
                   and 6 clonal repositories. These facilities housed 97 percent of the 450,423 total
                   accessions in the NPGS collections. For full details of the scope of this audit,
                   see the Scope and Methodology section at the end of this report.




USDA/OIG-A/50601-6-Te                                                                        Page 3
Findings and Recommendations
Section 1.   Controls Over GEOs

                     The NPGS handbook, The Manual of Procedures for the National Plant
                     Germplasm System, dated August 1996, provides overall guidance for the
                     operation of the NPGS. However, it includes no national guidelines regarding
                     the identification, shipment, physical inventory, and disposal of GEOs.
                     Because ARS officials consider germplasm produced by genetic engineering
                     to present no greater risk than germplasm produced by traditional breeding
                     methods, they had not anticipated the need for national guidance.

                     Some curators of NPGS facilities believe additional controls are needed to
                     ensure that GEOs are properly handled. We identified two NPGS facilities
                     that had issued instructions for the control of GEOs at their individual
                     locations. However, only one, facility L, had developed its own written
                     guidelines for the identification and inventory of GEOs. Although officials at
                     facility L indicated that they have not yet received or stored any GEOs, they
                     have procedures in place in the event GEOs are received in the future. In its
                     operational manual, facility L recognizes the importance of identifying
                     genetically engineered germplasm and cautions staff to be aware of
                     genetically engineered material and the complications that would arise if it
                     were inadvertently distributed.

                     Given some foreign governments’ opposition to GEOs, the U.S. could face
                     increased criticism if the NPGS inadvertently distributed genetically
                     engineered germplasm, particularly to scientists in foreign countries, without
                     disclosing its genetically engineered nature.



Finding 1            NPGS Needs to Strengthen                Controls     to   Ensure      Proper
                     Identification of GEOs

                     The NPGS manual does not contain requirements to ensure that genetically
                     engineered accessions are so identified. As a result, documents
                     accompanying arriving accessions did not directly indicate the accessions
                     were genetically engineered, and curators did not always recognize incoming
                     GEOs and record them as such in the GRIN database.

                     Of the 20 NPGS facilities we visited, we identified 6 that stored GEOs. Four
                     facilities received GEOs developed elsewhere, and curators at two of those
                     facilities were not aware of all incoming, genetically engineered accessions.
                     Two facilities developed their own genetically engineered accessions.
                     Although we found that the genetically engineered germplasm researched
                     onsite was adequately accounted for at the time of our visits, controls to

USDA/OIG-A/50601-6-Te                                                                       Page 4
                                        prevent the inadvertent distribution of GEOs would be strengthened if NPGS
                                        developed written procedures regarding the control of genetically engineered
                                        germplasm at its facilities.

                                        Our audit disclosed that, apart from GEOs developed at NPGS associated
                                        laboratories, genetically engineered germplasm stored at NPGS facilities
                                        originated from at least two sources (the PVPO and company A) and possibly
                                        the CSR.

                                        Facility M

                                        In a memorandum of understanding, dated March 11, 2002, between
                                        USDA/ARS/facility M and company A, facility M agreed to provide storage
                                        of reproducible seed deposits identified by company A and its designated trait
                                        licensees as security backup plant materials. Facility M officials informed us
                                        that the plant material received from company A is regulated genetically
                                        engineered germplasm.

                                        Also, during our visit to facility M in October 2002, the director told us that
                                        in a conversation with the PVPO commissioner in the spring of 2002, he was
                                        advised that approximately 200 of the PVPO voucher specimens stored at
                                        facility M were genetically engineered. All of the accessions were shipped to
                                        the facility by the PVPO; however, the PVPO did not identify the accessions
                                        as GEOs, nor would the commissioner disclose which PVPO voucher
                                        specimens were genetically engineered. Facility M officials identified four
                                        accessions they believed were genetically engineered based on the title of the
                                        accession.

                                        During our work at the PVPO, officials informed us that the PVPO had
                                        identified 223 PVP applications as GEOs, 217 of which had been sent to
                                        NPGS. The remaining six GEOs continued to be held by the applicants until
                                        PVPO approved their applications. The PVPO based GEO status on an
                                        assessment of information contained in the PVP application, which may have
                                        included (1) wording indicating that the applicant used genetically engineered
                                        material at some point in the development of the variety, (2) a report
                                        describing the presence of genetically engineered material (either a
                                        transgene 2 or the expression of a transgene), and (3) a combination of the use
                                        of a GEO in the pedigree and the description of the GEO-derived trait in the
                                        final line. However, officials indicated, it would be possible for a PVP
                                        applicant to use a GEO in the pedigree and then remove the GEO-derived
                                        trait from the final variety, resulting in a created variety using genetically
                                        engineered material but that does not express the GEO-derived trait.

                                        According to PVPO officials, section 56 of the PVPA regarding
                                        confidentiality governs applications for certificates of protection listed as

2
    A transgene is a foreign gene inserted by genetically engineering methods.
USDA/OIG-A/50601-6-Te                                                                                           Page 5
                                    pending, abandoned, or not otherwise issued. Based on this section, the
                                    PVPO had concluded that it could not ask applicants if germplasm is
                                    genetically engineered. However, in a subsequent discussion with the
                                    commissioner of the PVPO, we learned that PVPO had obtained an Office of
                                    the General Counsel opinion allowing it to ask if a variety contained any
                                    transgenes; if so, the applicant would be required to provide the USDA-
                                    APHIS reference number of the approved petition to deregulate the
                                    genetically engineered plant.

                                    In a conversation with the deputy associate administrator for AMS on
                                    April 16, 2003, he stated that AMS would be willing to notify facility M of
                                    all GEOs shipped from the PVPO to the NPGS.

                                    While officials at Facility M had not identified any of the germplasm
                                    submitted by CSR, the organization associated with Crop Science, as
                                    genetically engineered, GEOs from CSR or another source could potentially
                                    enter the NPGS undetected because facility M’s storage applications do not
                                    require the applicant to identify genetically engineered germplasm as such.
                                    The director of facility M agreed that the storage application should be
                                    revised, but the facility could not require donors to identify GEOs until ARS
                                    Headquarters issues a policy requiring the identification of GEOs.

                                    In summary, except for the accessions from company A and four PVPO
                                    specimens assumed to be GEOs, facility M officials did not know if any of
                                    the germplasm stored at the facility was genetically engineered. Although
                                    facility M had an internal database for recording GEO information, policies
                                    for identifying and storing PVPO samples with genetically engineered traits,
                                    and policies for storing and marking genetically engineered company A
                                    samples, the policies had not been incorporated in the facility’s guidelines,
                                    dated April 1, 1998.

                                    Facility K

                                    We visited facility K in July and August 2002, and sampled 145 accessions
                                    from the collection’s database that were either in the process of obtaining a
                                    PVPO certificate or that had been issued a certificate. We identified one
                                    genetically engineered accession. In June 2002, facility K received 1,614
                                    seeds of the accession after an applicant abandoned the PVP process. During
                                    our initial visit in July, officials indicated they were not storing any GEOs.
                                    However, during our followup work in December 2002, we learned that the
                                    accession was genetically engineered. Although neither the shipping records
                                    nor the inventory records disclosed that the accession was genetically
                                    engineered, the title of the sample that included the acronym BG/RR 3
                                    suggested GEO status. The facility staff recorded the accession in the
                                    collection’s local database after our visits.
3
  BG/RR stands for Boll Guard Roundup Ready and refers to a plant that has been genetically engineered to resist applications of Roundup, a commercial
herbicide.
USDA/OIG-A/50601-6-Te                                                                                                                       Page 6
                                          In his response to our written statement documenting the genetically
                                          engineered accession, the research leader at facility K wrote, “The fact that a
                                          PVP accession was introduced with such a designation (BG/RR), without
                                          identification as a potential transgenic, should prompt improved controls and
                                          guidelines by the NPGS for handling this type of material.”

                                          Facility D

                                          During our visits to facility D in June and July 2002, we were informed that
                                          the facility had genetically engineered turf grass in inventory, which it
                                          received in two shipments of 22 plants and 26 sprigs on February 14, 2002,
                                          and April 8, 2002, respectively. We learned that the facility had housed other
                                          GEOs in the past.

                                          Facilities Q and R

                                          During our visit to facilities Q and R 4 in August 2002, we noted that one
                                          scientist was performing research on two genetically engineered crops, barley
                                          and wheat. Germplasm from these genetically engineered crops was stored
                                          with the NPGS collections at the facilities, where it was secured and isolated
                                          in storage vaults. However, the genetically engineered germplasm was not
                                          officially part of the NPGS and thus was not recorded in GRIN.

                                          Facility G

                                          At the time of our visit in August 2002, the director of facility G estimated
                                          that approximately 31,000 transgenic maize stocks were stored at the facility,
                                          all of them generated by the National Science Foundation project Maize Gene
                                          Discovery, DNA Sequencing and Phenotypic Analysis. Although the
                                          transgenic stocks are recorded on the public Zea mays Database (ZmDB),
                                          none of the stocks is currently listed in GRIN. According to the director, an
                                          ARS-funded project is developing a new database that will merge
                                          information in ZmDB with the maize accession listing in GRIN. While the
                                          facility will likely send transgenic maize germplasm to facility M for storage
                                          in the future, the director explained that the small quantity of kernels per
                                          stock has made such a donation impractical.

Recommendation No. 1, for ARS

                                          Develop policy guidelines for effectively obtaining information related to
                                          GEO accessions entering NPGS facilities, taking into consideration existing
                                          legal and emerging international developments.
                                          nt USDA offices and agencies to address this recommendation, and draft
                                          policy guidelines for issuance at the Department level.

4
    The two facilities are located at the same site.
USDA/OIG-A/50601-6-Te                                                                                             Page 7
                    OIG Position. We concur with the proposed actions. To accept a
                    management decision, please provide the details of the new policy
                    guidelines and the estimated date for implementation.

Recommendation No. 2, for ARS

                    Establish procedures, in cooperation with the PVPO Commissioner, for
                    informing NPGS of GEOs shipped to its facilities by PVPO.

                    Agency Response. Addressing Recommendation 2 must await policy
                    decisions discussed under Recommendation 1. ARS will work closely with
                    the PVPO to implement such decisions.

                    OIG Position. We concur with the proposed actions. To accept a
                    management decision, please provide the details of the new policy for PVPO
                    informing NPGS of GEOs shipped to NPGS facilities and the estimated date
                    for implementation.

Recommendation No. 3, for ARS

                    Establish procedures, consistent with the policy developed in response to
                    Recommendation No. 1, for documenting in GRIN the GEOs entering NPGS
                    facilities.

                    Agency Response. As OIG recognized, addressing Recommendation 3
                    must await policy decisions discussed under Recommendation 1.

                    OIG Position. To accept a management decision, please provide the
                    procedures established for documenting in GRIN the GEOs entering NPGS
                    facilities and the estimated date for implementation.



Finding 2          APHIS Needs to Strengthen Controls to Prevent Unauthorized
                   Shipment of Regulated GEOs

                   Due to a control weakness in APHIS’ requirements for movement of
                   regulated GEOs, interstate shipments of regulated genetically engineered
                   seed were made without APHIS approval.               According to APHIS
                   requirements, a permit or notification must be obtained for the interstate
                   movement of a regulated article. However, APHIS does not require the
                   shipper of a regulated article to obtain a copy of the approved notification.
                   APHIS regulation at 7 CFR, section 340.4(c)(1), requires only that the
                   shipper displays the approved notification number on the outside of each
                   shipping container. As a result, the shipper may obtain the APHIS approved
                   notification numbers from the notification’s responsible party without
USDA/OIG-A/50601-6-Te                                                                    Page 8
                   possessing copies of the approved document. Thus, the shipper cannot
                   ensure that shipments of regulated articles comply with the terms of
                   movement specified by APHIS.

                   From July 27, 2001, to August 6, 2002, staff at facility G made six shipments
                   of regulated genetically engineered seed based on two APHIS approved
                   notifications. Five of the six shipments did not conform to the terms of the
                   APHIS notifications and were therefore made without APHIS approval.

                   The first APHIS notification authorized interstate movement of regulated
                   seed in the States of California and Hawaii during the period of
                   November 27, 2000, through May 31, 2001. On August 2, 2001, a foreign
                   student working for the party holding the notification requested that regulated
                   seed be shipped to the party’s laboratory located at a university in California.
                   The regulated seed was shipped from facility G to California on August 2,
                   2001. The shipment was made from a State not approved for interstate
                   movement by the APHIS notification and after the end of the approved
                   movement period.

                   The second APHIS notification authorized the field release (planting) of
                   regulated seed in California for the period April 17, 2001, through April 14,
                   2003. During the period July 26, 2001, through August 6, 2002, another
                   party in California made four requests for shipment of regulated seed from
                   facility G to California. The four shipments were made under an approved
                   notification for field releases only; therefore, interstate movement of the
                   regulated seed was not authorized.

Recommendation No. 4, for APHIS

                   Establish procedures requiring shippers of GEOs to obtain a copy of the
                   responsible party’s notification/permit and to verify that the
                   notification/permit authorizes the shipment of the requested GEO, to the
                   location designated, during the timeframe the notification/permit authorizes
                   for movement of the GEO.

                   Agency Response. The audit revealed two instances whereby “regulated
                   articles” were shipped to unauthorized States or destinations. Both
                   movements occurred after permit expiration. APHIS has complied with
                   OIG’s recommendation that shippers must be cognizant of movement
                   conditions and restrictions.       We modified our formal “letter of
                   acknowledgement” that authorizes such movements. This correspondence
                   now includes a clause requiring the recipient (responsible party) to provide a
                   copy to all cooperators. A copy of a sample “letter of acknowledgement” is
                   enclosed. Dates and sites of authorized movements are included. Shippers of
                   “regulated articles” can now verify compliance with the restrictions identified
                   on movement permits.


USDA/OIG-A/50601-6-Te                                                                       Page 9
                   OIG Position. Although APHIS’ response indicates concurrence with the
                   recommendation, further action is necessary to accept a management
                   decision. The response indicates that APHIS modified its “letter of
                   acknowledgement” by disclosing dates and sites of authorized movement and
                   by requiring a copy of the letter be provided to all cooperators. While this
                   process is workable, further refinements to the “letter of acknowledgement”
                   are needed. The sample letter provided OIG only contained the effective date
                   of the notification and the State to which GEOs may be shipped.

                   To accept a management decision, the “letter of acknowledgement” needs to
                   be modified to disclose the permit/notification period, both beginning and
                   ending dates. Also, the letter needs to disclose the States from which GEOs
                   may be shipped as well as the States to which GEOs may be shipped.
                   Further, please provide the estimated date for implementation.



Finding 3          NPGS Needs to Require Physical Inventories of Accessions on a
                   Regular Basis

                   No procedures exist in the NPGS manual to require physical inventories of
                   accessions stored in NPGS facilities. Thus, most facility managers did not
                   take physical inventories on a regular basis. With the potential for increasing
                   numbers of GEOs entering NPGS facilities, it becomes more critical that
                   physical inventories are conducted on a scheduled basis and that all
                   accessions are accurately recorded in GRIN.

                   Of the 20 NPGS facilities evaluated, only 8 conducted physical inventories of
                   their collections on a regular basis. Managers explained that the facilities
                   have limited resources and cannot devote time to lengthy inventories. At
                   facility E, the curator said the physical inventory consisted of observations
                   recorded periodically on map sheets used to chart the location of trees on the
                   facility’s acreage. At facility M, management said that germplasm might be
                   ruined if taken out of refrigerated vaults to be inventoried, and taking
                   inventory in the vaults was difficult due to the cold temperatures.

                   At facility M, the last physical inventory was taken in 1992, when the facility
                   moved to its current location. The inventory process took 2½ months with a
                   20-person staff. The inventory discovered about 2,000 accessions that were
                   not recorded in GRIN due to a mix-up at the database management unit. In
                   addition, staff members found accessions they did not know they had and
                   accessions they thought they had but were not there.

                   Officials at facility M said that physical inventories would be possible if
                   taken on a rotating basis over a period of 10 years. An annual physical
                   inventory of PVPO and genetically engineered germplasm would also be


USDA/OIG-A/50601-6-Te                                                                    Page 10
                   feasible because those accessions are few in number and would take only one
                   day to inventory, according to officials at facility M.

                   At facility D, there were material discrepancies in the number of accessions
                   GRIN recorded and the number of accessions stored at the facility. Physical
                   inventories were not taken on a regular basis at the facility, and there were no
                   written requirements to perform them. Before the facility staff corrected the
                   inventory records in GRIN on July 12, 2002, the number of accessions was
                   overstated by 2,019 accessions. On June 20, 2002, the inventory records
                   showed 6,847 accessions. On July 16, 2002, the corrected records showed
                   4,828 accessions. According to the staff, two reasons accounted for most of
                   the overstatement. First, some receiving NPGS locations did not always
                   correctly record in GRIN the accessions shipped to them by facility D.
                   Second, facility D did not always record in GRIN the accessions shipped to
                   non-NPGS locations. As a result, the facility D inventory in GRIN included
                   some accessions that had been shipped to other locations.

                   The unit leader at facility D advised that inventories will now be conducted
                   twice a year, and that this task will be included in the performance standards
                   of appropriate staff.

                   At facility J, there was no written requirement mandating that the facility
                   staff take a physical inventory of the collection’s germplasm at specific
                   intervals. The curator said that a physical inventory was taken at least once a
                   year over a period of several months. However, the records generated by this
                   annual physical inventory (map sheets and a field book) did not provide
                   readily available information about the number of accessions stored at the
                   facility.

                   In addition, the curator told us that the GRIN record of accessions at facility J
                   was not complete. We tested a sample of 32 tree accessions and found that 6
                   of them were not recorded on GRIN. The accession for another tree was
                   listed on GRIN twice. The curator told us that facility J’s Internet website
                   was also incomplete. We tested a sample of eight trees and found that one
                   tree accession was not on the website.

Recommendation No. 5, for ARS

                   Develop procedures requiring periodic physical inventory of accessions.

                   Agency Response. As a starting point ARS will develop procedures to
                   ensure a continuous real time record of all inventory uses, i.e., additions,
                   removals, disposals. Furthermore ARS will develop procedures for
                   mandatory, periodic physical inventories of geneback holdings and document
                   them in the Operations Manual for the NPGS and for individual local sites.
                   Procedures will vary greatly among sites, given the dramatically different
                   crops managed, and managerial protocol employed (e.g., orchards of date
USDA/OIG-A/50601-6-Te                                                                      Page 11
                                           palms vs. seed cryopreserved in the base collection). Adherence to
                                           procedures will be monitored via periodic reports, spot checks during Annual
                                           Resource Management Plan reviews, unit reviews, etc.

                                           OIG Position.      We concur with the proposed actions. To accept
                                           management decision, please provide the detailed procedures designed to
                                           ensure a continuous real time inventory record and the estimated date for
                                           implementation.



Finding 4                                  NPGS Needs to Establish Written Procedures for Disposal of
                                           Germplasm

                                           No uniform procedures exist for disposal of germplasm at NPGS facilities, a
                                           situation that could allow for the inadvertent release of GEOs into the
                                           environment. Our audit found various methods of germplasm disposal, most
                                           of which were not documented as written procedures.

                                           Of the 20 NPGS facilities we visited, only 2 had written procedures for
                                           disposal of germplasm. The NPGS National manual contains disposal
                                           procedures for disposing of quarantined accessions at facility M. After
                                           evaluations of germination tests on quarantined accessions have been
                                           conducted, all plant materials and accessories used are placed in plastic
                                           biohazard waste bags and autoclaved. Officials at facility M said that
                                           quarantined and PVPO germplasm are disposed of by autoclaving while other
                                           accessions are trashed. At facility D, written procedures indicate that
                                           germplasm is destroyed by burning or another method of destruction.

                                           The remaining facilities did not have written procedures for disposal of
                                           germplasm. Officials at the facilities advised us that they used various
                                           methods for the disposal of germplasm, from simply throwing unwanted
                                           germplasm into the regular garbage to incineration. Twelve of the
                                           collections’ responsible officials, including that of facility G where
                                           genetically engineered seed is located, said disposal methods were to throw
                                           the germplasm in the trash. The manager of facilities P, Q, and R 5 advised
                                           that germplasm from a foreign country would be autoclaved and other
                                           germplasm would be placed in the trash. The acting research leader of
                                           facilities A and B 6 advised that duplicate germplasm is thrown out with the
                                           regular garbage and diseased germplasm is incinerated.

                                           At the six clonal repositories we visited, where germplasm is stored as living
                                           plants rather than as seed, methods of disposal included chipping and
                                           autoclaving germplasm remnants. Burning was another preferred disposal


5
    The three facilities are located at the same site.
6
    The two facilities are located at the same site.
USDA/OIG-A/50601-6-Te                                                                                           Page 12
                   method. Three of the six repositories disposed of germplasm by throwing it in
                   the trash.

                   At facility H, the curator advised that there were no written procedures for
                   the disposal of germplasm. According to the curator, the facility policy is to
                   sell seed removed from the collection to a grain elevator.

Recommendation No. 6, for ARS

                   Develop procedures specifying proper disposal methods for germplasm,
                   including GEOs being refused entry into or removed from NPGS facilities.

                   Agency Response. ARS will develop procedures specifying proper
                   disposal methods for gemsplasm, and document them in the Operations
                   Manual for the NPGS and for individual local sites. Procedures will vary
                   greatly among sites, given the dramatically different crops managed, and
                   managerial protocol employed (e.g., disposal of 10 m tall date palms vs.
                   nearly microscopic seeds of orchids). Adherence to procedures will be
                   monitored via periodic reports, spot checks during Annual Resource
                   Management Plan reviews, unit reviews, etc.

                   OIG Position. We concur with the proposed actions. To accept a
                   management decision, please provide the specific procedure for germplasm
                   disposal as documented in the Operations Manual for the NPGS and the
                   estimated date for implementation.




USDA/OIG-A/50601-6-Te                                                                    Page 13
Section 2.   NPGS Facility Security

Finding 5            Policies Governing Entry of Foreigners to NPGS Facilities Need
                     Revision

                     We found that ARS’ national policy for reporting noncitizen visitors and
                     workers at NPGS facilities was not followed. NPGS officials were either not
                     aware of the policy or elected not to follow it. These diminished security
                     protocols may have exposed weaknesses in the facilities’ ability to safeguard
                     NPGS germplasm collections from countries sponsoring terrorism.
                     Subsequent to our fieldwork, ARS issued a new policy that does not address
                     the risk of allowing foreigners from countries sponsoring terrorism to visit
                     NPGS facilities.

                     At the time of our audit, NPGS facilities were required to follow the
                     Research, Education, and Economics policy (REE) 121.2, Foreign Research
                     Associate Program and Foreign Visitors at ARS Facilities, dated May 8,
                     1984. The policy required ARS officials to review requests from foreign
                     sources or foreign visitors, decide if visitation was possible, and send
                     documentation of such visits to ARS Headquarters. NPGS officials had the
                     discretion to permit unannounced visits, however, they were required to
                     provide post facto documentation to ARS.

                     During our audit, we obtained visitor logs for 10 of the 20 facilities we
                     visited. None of the 10 facilities had fully complied with REE policy 121.2.

                     From May 1998 to August 2002, we found that 181 foreigners had visited the
                     10 facilities. Of the 181 visitors, 66 were unannounced and the remaining 115
                     were scheduled through various research organizations and universities. The
                     facilities submitted the required documents to ARS for only 3 of the 115
                     planned visitors; the remaining 112 planned visitors were not documented.
                     The facilities submitted the required post facto memo for only 9 of the 66
                     unannounced visitors.

                     In our review of the visitor logs, we noted 17 visitors from North Korea,
                     which continues to be 1 of 7 Governments (along with Iran, Iraq, Syria,
                     Libya, Cuba, and Sudan) designated by the U.S. Secretary of State as
                     sponsors of international terrorism. Of the 17 visitors, 11 involved planned
                     visits and the other 6 were unannounced. REE policy 121.2 reporting
                     requirements were not met by any of the three facilities visited by the North
                     Koreans.

                     We also found a student helper from Iran working at facility O, where she
                     had been employed for the last 2 years. The research leader at the facility said
                     security clearances are conducted in the hiring process for Federal
                     employees, but security clearances for student helpers are not performed.


USDA/OIG-A/50601-6-Te                                                                       Page 14
                   ARS administration issued new interim procedures for foreign workers and
                   foreign visitors in January 2003. Although the new policy does not place any
                   special emphasis on foreign visitors from countries sponsoring terrorism, the
                   memorandum transmitting the policy specifies that no one from countries on
                   the Department of State’s list of State sponsors of terrorism may work at
                   ARS facilities. The new policy requires all facilities to maintain electronic
                   visitor logs.

                   We are concerned that the new policy does not prohibit individuals from
                   countries sponsoring terrorism from visiting NPGS facilities.

Recommendation No. 7, for ARS

                   Revise agency policy to prohibit foreigners from countries on the Department
                   of State’s list of State sponsors of terrorism from visiting at NPGS facilities
                   without national office clearance.

                   Agency Response. ARS will reissue and emphasize the Agency policy
                   that prohibits non-citizens from countries on the Department of State’s list of
                   State sponsors of terrorism from visiting any ARS facility without approval
                   of ARS Homeland Security.

                   OIG Position. We concur with the proposed actions. To accept a
                   management decision, please provide the estimated date for implementation.

Recommendation No. 8, for ARS

                   Follow up to ensure that NPGS facilities, including facility O, are not
                   employing foreigners from countries sponsoring terrorism in accordance with
                   agency policy.

                   Agency Response. ARS will reissue and emphasize the Agency policy
                   that prohibits non-citizens from countries on the Department of State’s list of
                   State sponsors of terrorism from working in any ARS facility.

                   OIG Position. To accept a management decision, please provide a copy of
                   the reissued policy prohibiting employment of non-citizens from countries on
                   the Department of State’s list of State sponsors of terrorism and the estimated
                   date for implementation. Also, provide evidence that ARS has followed up
                   with NPGS facilities, including facility O, to ensure non-citizens from the
                   Department of State’s list of State sponsors of terrorism are not employed at
                   the facilities.




USDA/OIG-A/50601-6-Te                                                                    Page 15
Finding 6                               Physical Security at NPGS Facilities Needs Enhancement

                                        Many of the 20 NPGS facilities we visited during the summer and fall of
                                        2002 were in need of enhanced security measures as required by ARS
                                        guidelines. 7 Managers at 12 facilities said they were waiting for funding
                                        and/or vulnerability and threat assessments to be conducted by USDA’s
                                        Office of Procurement and Property Management, which began inspecting
                                        the physical security of all USDA facilities following the events of
                                        September 11, 2001.

                                        On November 7, 2003, the director of ARS Homeland Security reported that
                                        all assessments had been completed, and needed security enhancements
                                        prioritized. Security enhancements were proceeding at four of the highest
                                        priority facilities. Security enhancements at 14 facilities are pending receipt
                                        of the fiscal year 2004 budget, and security enhancements at the remaining 2
                                        facilities will be funded from area reserve funds or headquarters base funds.
                                        Nonetheless, we concluded that some managers waiting for funding could
                                        immediately take reasonable security measures to lessen the risk of security
                                        breaches by vandals and eco-terrorists at their facilities. Exterior doors at
                                        facility K did not have security locks, and the exterior doors at 10 facilities
                                        (A, B, E, F, G, H, I, J, K, and L) were not continually locked.

                                        At 5 of the 20 facilities we visited, there had been incidents of a criminal
                                        nature, ranging from misdemeanor to felony theft, since 1997. For example,
                                        at facility L, three thefts of high-pressure sodium growth lights were reported.
                                        An official at the facility speculated that the lights were stolen to grow
                                        marijuana indoors; the official said one of the lights was recovered after a
                                        drug bust. Also, a purse and day planner were stolen from a desk drawer and
                                        later recovered in an unlocked vehicle in the parking lot at the same facility.

Recommendation No. 9, for ARS

                                        Continue security renovations at NPGS facilities based on established
                                        priorities and available funding, and direct the facility managers to
                                        immediately take reasonable measures, such as locking doors, to strengthen
                                        physical security of the facilities.

                                        Agency Response. ARS Homeland Security will reemphasize the need to
                                        take reasonable, interim security measures, such as locking doors and
                                        wearing badges, pending completion of physical security upgraded at the
                                        facility.



7
    ARS security guidelines are based on the U.S. Marshall Service Vulnerability Assessment for Federal Facilities, dated 1995.
USDA/OIG-A/50601-6-Te                                                                                                             Page 16
                   OIG Position. We concur with the proposed actions. To accept a
                   management decision, please provide the document reemphasing interim
                   security measures and the date estimated for implementation.




USDA/OIG-A/50601-6-Te                                                           Page 17
Scope and Methodology
                   Our audit was conducted at NPGS facilities across the U.S. and at the PVPO
                   in Beltsville, Maryland. NPGS members include Federal, State, and private
                   organizations and research units dedicated to preserving the genetic diversity
                   of crop plants. As of March 24, 2002, the NPGS consisted of 30 facilities
                   holding 450,423 accessions of germplasm across the U.S. and Puerto Rico.
                   NPGS scientists evaluate, catalog, and distribute germplasm to researchers
                   and other valid requesters. Coordinating the system is ARS, principal
                   research agency of USDA.

                   PVPO issues legal certificates of protection for new, distinct, uniform, and
                   stable varieties of sexually reproduced or tuber-propagated plants. PVPO
                   deposits voucher samples of germplasm at the NPGS’ long-term storage
                   facility.

                   We initiated this audit as a result of an audit survey conducted in 2001 of the
                   Department’s controls over the release of GEOs into the environment. Based
                   on our fieldwork, we identified a number of systemic weaknesses in the
                   Department’s policies and procedures concerning GEOs. It appeared from
                   our survey that officials at NPGS facilities did not know if the germplasm
                   they received was genetically engineered. Due to foreign governments’
                   refusal to allow some genetically engineered crops into their countries and
                   resistance to expanded use of GEOs in the U.S. by eco-terrorists and other
                   environmental groups, it was imperative that an audit be conducted.

                   We visited 20 NPGS facilities in the U.S., including 14 germplasm
                   collections and 6 clonal repositories. We reviewed the NPGS manual of
                   procedures for controls over identification, shipment, inventory, and disposal
                   of germplasm. We also reviewed the Department’s policies and regulations
                   concerning physical security. Our review covered the period June 2002
                   through May 2003.

                   Our audit was performed in accordance with generally accepted Government
                   Auditing Standards. To accomplish the audit objectives, we performed the
                   following steps:

                        •   Reviewed applicable laws, regulations, and guidance concerning
                            germplasm;
                        •   reviewed USDA policies, procedures, and administrative controls
                            concerning GEO germplasm;
                        •   reviewed ARS and NPGS policies, procedures, and administrative
                            controls concerning germplasm;
                        •   reviewed PVPO laws, regulations, and rules of practice;

USDA/OIG-A/50601-6-Te                                                                    Page 18
                        •   interviewed USDA Secretarial office staff and officials at ARS
                            Headquarters, AMS, and APHIS;
                        •   visited NPGS facilities; and
                        •   interviewed NPGS personnel.




USDA/OIG-A/50601-6-Te                                                             Page 19
Exhibit A – ARS Response to Draft Report
                                           Exhibit A - Page 1 of 3




USDA/OIG-A/50601-6-Te                                  Page 20
                        Exhibit A - Page 2 of 3




USDA/OIG-A/50601-6-Te               Page 21
                        Exhibit A - Page 3 of 3




USDA/OIG-A/50601-6-Te               Page 22
Exhibit B – APHIS Response to Draft Report
                                             Exhibit B - Page 1 of 1




USDA/OIG-A/50601-6-Te                                    Page 23
Glossary of Terms
Accession – Recognized unique genetic material (i.e., a distinct variety of a plant) maintained at a
collection site. This material includes samples from wild populations, plants of a particular cultivar or
other improved germplasm, or tissue cultures. Each accession is given a unique primary identifier in
GRIN. It is usually a plant introduction number. There are more than 450,000 accessions (distinct
varieties of plants) in the GRIN database. These accessions represent more that 10,000 species of
plants.

Genetic engineering – The genetic modification of organisms by recombinant DNA techniques.

Genus/Genera – a taxonomic category of related organisms below a family and above a species.

Germplasm – the raw genetic material required by breeders and researchers for development of
improved cultivars and other research. Genetic diversity includes gene heritability and variability and
is found in wild species, local landraces, heirloom varieties, and adapted cultivars.

Organism – Any active, infective, or dormant stage or life form of an entity characterized as living,
including vertebrate and invertebrate animals, plants, bacteria, fungi, mycoplasmas, mycoplasma-like
organisms, as well as entities such as viroids, viruses, or any entity characterized as living, related to
the foregoing.

Permit – A written permit issued by the administrator, for the introduction of a regulated article under
conditions determined by the administrator, not to present a risk of plant pest introduction.

Plant – Any living stage or form of any member of the plant kingdom including, but not limited to,
eukaryotic algae, mosses, club mosses, ferns, angiosperms, gymnosperms, and lichens (which contain
algae) including any parts (e.g., pollen, seeds, cells, tubers, stems) thereof, and any cellular
components (e.g., plasmids, ribosomes, etc.) thereof.

Plant Pest – Any living stage (including active and dormant forms) of insects, mites, nematodes, slugs,
snails, protozoa, or other invertebrate animals, bacteria, fungi, other parasitic plants or reproductive
parts thereof; viruses; or any organisms similar to or allied with any of the foregoing; or any infectious
agents or substances, which can directly or indirectly injure or cause disease or damage in or to any
plants or parts thereof, or any processed, manufactured, or other products of plants.

Recombinant DNA Molecules – In the context of the National Institutes of Health guidelines,
recombinant DNA molecules are defined as either (1) molecules that are constructed outside living
cells by joining natural or synthetic DNA segments to DNA molecules that can replicate in a living
cell, or (2) molecules that result from the replication of those described in (1) above.

Regulated Article –Any organism which has been altered or produced through genetic engineering, if
the donor organism, recipient organism, or vector or vector agent belongs to any genera or taxa
designated in 7 CFR, sec 340.2 and meets the definition of plant pest, or is an unclassified organism
and/or an organism whose classification is unknown, or any product which contains such an organism,
USDA/OIG-A/50601-6-Te                                                                            Page 24
or any other organism or product altered or produced through genetic engineering which the
administrator, determines is a plant pest or has reason to believe is a plant pest.

Vector – Organism or object used to transfer genetic material from the donor organism to the recipient
organism.




USDA/OIG-A/50601-6-Te                                                                         Page 25
